APPENDIX A
Memorandum Decision Filed July 26, 2021

Case: 20-10013, 07/26/2021, ID: 12182433, DktEntry: 46-1, Page 1 of 2

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
JUL 26 2021
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
UNITED STATES OF AMERICA,
Plaintiff-Appellee,

U.S. COURT OF APPEALS

No. 20-10013
D.C. No.
1:18-cr-00076-LJO-BAM-6

v.
JOSEPH VASQUEZ, Jr., AKA Fat Joe,
AKA Joe Vasquez, AKA Joseph Charles
Vasquez,

MEMORANDUM*

Defendant-Appellant.
Appeal from the United States District Court
for the Eastern District of California
Lawrence J. O’Neill, District Judge, Presiding
Submitted July 19, 2021**
Before:

SCHROEDER, SILVERMAN, and MURGUIA, Circuit Judges.

Joseph Vasquez, Jr., appeals from the district court’s judgment and
challenges the 320-month sentence imposed following his jury-trial conviction for
conspiracy to distribute and possess with intent to distribute methamphetamine, in

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Case: 20-10013, 07/26/2021, ID: 12182433, DktEntry: 46-1, Page 2 of 2

violation of 21 U.S.C. §§ 841(a)(1) and 846, and distribution of methamphetamine,
in violation of 21 U.S.C. § 841(a)(1). We have jurisdiction under 28 U.S.C.
§ 1291, and we affirm.
Vasquez contends that the sentence is substantively unreasonable because it
does not adequately account for his rehabilitative efforts and because it creates an
unwarranted disparity with a co-defendant. The district court did not abuse its
discretion. See Gall v. United States, 552 U.S. 38, 51 (2007). The record makes
clear that the court accounted for Vasquez’s rehabilitation efforts by granting a
downward variance, but concluded that a further variance was not warranted
because of the role Vasquez played in the drug conspiracy and his previous
convictions for drug trafficking. Contrary to Vasquez’s argument, the court
conducted an individualized assessment of the 18 U.S.C. § 3553(a) sentencing
factors, and the below-Guidelines sentence is substantively reasonable in light of
those factors and the totality of the circumstances. See Gall, 552 U.S. at 51.
Moreover, the alleged sentencing disparity is not unwarranted because Vasquez is
not similarly situated to his co-defendant. See United States v. Osinger, 753 F.3d
939, 949 (9th Cir. 2014).
AFFIRMED.

2

20-10013

